No.

IN THE
SUPREME COURT OF THE UNITED STATES

SHERIDAN SISK,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

MOTION TO PROCEED IN FORMA PAUPERIS

SHERIDAN SISK, Petitioner
THOMAS A. BRODNIK
McNeelyLaw LLP
143 W. Market Street, Suite 600-A
Indianapolis, IN 46204
(317) 825-5110
Telephone
(317) 825-5109
Facsimile
TBrodnik@McNeelylaw.com
Attorney for Petitioner

Comes now the petitioner, Sheridan Sisk, by counsel, and moves this Court for an order
allowing him to proceed in forma pauperis, and in support thereof, shows the Court as follows:
1.

Mr. Sisk seeks to file a Petition for a Writ of Certiorari (“Petition”) in this Court,

which Petition is being filed together with this Motion, as provided by Rule 39.2 of this Court.
2.

Mr. Sisk was appointed counsel in both the United States District Court for the

Southern District of Indiana and the United States Court of Appeals for the Seventh Circuit.
Counsel for Mr. Sisk was appointed in both courts pursuant to the Criminal Justice Act, 18 U.S.C.
§ 3006A.
3.

As Mr. Sisk was appointed counsel in both the District Court and the Court of

Appeals, pursuant to 18 U.S.C. § 3006A, no affidavit or declaration from Mr. Sisk needs to be
filed with this Motion, pursuant to Rule 39.1 of this Court.
WHEREFORE, the petitioner, Sheridan Sisk, respectfully requests that he be allowed to
proceed in forma pauperis in this matter, and for all other just and proper relief.
Respectfully submitted,
/s/ Thomas A. Brodnik
Thomas A. Brodnik, Attorney No. 14508-49
McNeelyLaw LLP
143 W. Market Street, Suite 600-A
Indianapolis, IN 46204
Telephone:
(317) 825-5110
Facsimile:
(317) 825-5109
TBrodnik@McNeelylaw.com

